LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

February 11, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-497: THE INCLUSIVE COMMUNITIES PROJECT, INC. V. LINCOLN PROPERTY
COMPANY, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Respondents, on February 11,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Petitioner:
PETITIONER:
Michael M. Daniel
Daniel & Beshara, P.C.
3301 Elm Street
Dallas, TX 75226
214-939-9230
daniel.michael@att.net
This service was effected by depositing three copies of a Respondents' Brief in
Opposition in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 11th day of February 2020.

